             Office of Inspector General
             _________________________________________________________________________________________




                           September 28, 2006

                           JOHN P. BERTOLINA
                           ACTING PLANT MANAGER, MARGARET L. SELLERS
                           PROCESSING AND DISTRIBUTION CENTER

                           SUBJECT:        Management Advisory – Color Coding of
                                           Standard Mail at the Margaret L. Sellers
                                           Processing and Distribution Center
                                           (Report Number NO-MA-06-004)

                           This report presents the results of our review of color-coding
                           of Standard Mail® at the Margaret L. Sellers Processing
                           and Distribution Center (P&DC) (Project Number
                           06XG028NO000). The primary objective of the review was
                           to determine whether color-coding of Standard Mail
                           conformed to the U.S. Postal Service’s National Color-Code
                           Policy. This is the second in a series of reviews addressing
                           mail processing color-coding.

Results in Brief           The Margaret L. Sellers P&DC generally color-coded
                           Standard Mail according to the Postal Service’s National
                           Color-Code Policy. We found that out of 697 Standard Mail
                           containers:

                                •   638, or about 92 percent, were tagged with the
                                    correct color code on arrival and processed with the
                                    original tag on a timely basis.

                                •   59, or about 8 percent, did not conform to Postal
                                    Service policy.

                           We also found that none of the 638 containers with correct
                           color codes had completed tags.
Color-Coding of Standard Mail at the Margaret L. Sellers                                                  NO-MA-06-004
 Processing and Distribution Center


                                    These conditions resulted from employee inattention and
                                    haste to meet critical entry times (CET), and insufficient
                                    training and monitoring of employees. As a result:

                                          •   When Standard Mail is not color-coded, the Postal
                                              Service cannot ensure it is timely processed,
                                              dispatched, and delivered. Additionally, the Postal
                                              Service cannot readily track service standards to
                                              ensure compliance.

                                         •    Mail inappropriately retagged with the next day’s color
                                              code represents unreported delayed mail.

                                         •    Without a date and time on the tag, the Postal
                                              Service cannot determine whether employees
                                              processed Standard Mail using the first in first out
                                              (FIFO) method. In addition, when an operation does
                                              not meet its clearance time, facility managers cannot
                                              determine what role the arrival time played.

                                    The P&DC also was not performing a timely count of
                                    Standard Mail, which may have distorted plan failures1 and
                                    delayed mail information posted to the daily mail condition
                                    report.

                                    Management agreed with the findings and
                                    recommendations. To ensure compliance with color-coding
                                    policy, management agreed to develop instructions, conduct
                                    training, and monitor date and time stamping on color-code
                                    tags. To ensure accurate mail counts, management
                                    indicated they added Standard Mail to the 12:10 a.m. count
                                    each day, and will monitor this activity for compliance.
                                    Management’s actions, taken or planned, should correct the
                                    issues identified in the report. Management’s comments, in
                                    their entirety, are included in Appendix B.

Background                          The Postal Service uses a system of color-coding to
                                    facilitate the timely processing, dispatch, and delivery of
                                    Standard Mail to meet established service standards. The
                                    purpose of color-coding is to sequence the mail to ensure
                                    FIFO processing.


1
    A plan failure occurs when mail is not processed timely with regard to a facilities operating plan.




                                                              2
Color-Coding of Standard Mail at the Margaret L. Sellers                                                NO-MA-06-004
 Processing and Distribution Center



                                 Postal Service policy requires a color-code tag on all
                                 Standard Mail, regardless of where the Postal Service
                                 receives it. This code represents the targeted day for
                                 clearing the mail from operations or delivering it. P&DCs
                                 generally use colored placards or tags to code this mail.
                                 The illustration below shows an example of a color-code tag
                                 used at the Margaret L. Sellers P&DC.




                                   Illustration 1: Sample of Margaret L. Sellers Color-Code Tag

                                 The tag in Illustration 1 indicates the “green” color
                                 designation, which represents clearance or delivery on
                                 Wednesday. The tag also provides space for entering the
                                 class of mail and the arrival day and time.

                                 The color code applied depends on the mail’s arrival time
                                 at the facility in relation to the facility’s CET for Standard
                                 Mail.2 Postal Operations Manual (POM), Section 458, sets
                                 the National Color-Code Policy for Standard Mail.

                                 For P&DCs, all outgoing, area distribution center (ADC),3
                                 sectional center facility (SCF),4 incoming primary, and

2
  CET is the latest time mail can enter an operation if it is to complete processing by the planned clearance time.
3
  An ADC is a postal facility that receives, processes, and distributes mail destined for specific ZIP Code areas under
the Management Mail Program.
4
  An SCF is a postal facility that serves as a distribution and processing center for post offices in designated
geographic areas as defined by the first three digits of the ZIP Code of those offices.



                                                           3
Color-Coding of Standard Mail at the Margaret L. Sellers                             NO-MA-06-004
 Processing and Distribution Center


                              carrier route mail must be color-coded to indicate scheduled
                              clearance 1 day after receipt at the facility, as shown in
                              Table 1 below.

                                            Table 1. 1-Day Clearance Matrix
                                      Receipt Day       Color Code    Clearance Day
                                       Saturday           White           Sunday
                                        Sunday             Blue          Monday
                                        Monday           Orange          Tuesday
                                       Tuesday            Green        Wednesday
                                      Wednesday           Violet         Thursday
                                       Thursday           Yellow          Friday
                                        Friday             Pink          Saturday

                              After the facility completes processing within the plant, it
                              removes the color code for the clearance day before
                              dispatch.

                              Some Standard Mail receives additional processing at the
                              ADC or SCF. This mail receives a 2-day color code based
                              on arrival time or its identification and extraction during the
                              initial distribution operation, as shown in Table 2 below.

                                             Table 2. 2-Day Delivery Matrix
                                       Arrival or
                                     Extraction Day     Color Code    Delivery Day
                                      Saturday and
                                                          Orange         Tuesday
                                         Sunday
                                        Monday            Green        Wednesday
                                        Tuesday           Violet         Thursday
                                       Wednesday          Yellow           Friday
                                        Thursday           Pink          Saturday
                                         Friday            Blue           Monday

                              The delivery day color-code remains on the mail until
                              delivery.

                              Postal Service policy requires P&DC managers to develop
                              local procedures to ensure employees apply and maintain
                              the correct color code on the mail based on its arrival time
                              on Postal Service property. Postal Service facilities use
                              color-coding to determine what mail did not meet their
                              operating plans for the daily mail condition report.




                                                      4
Color-Coding of Standard Mail at the Margaret L. Sellers                                NO-MA-06-004
 Processing and Distribution Center


                                  The Postal Service’s Mail Condition Reporting System is a
                                  repository for information related to mail processing
                                  conditions, including operating plan failures and delayed
                                  mail volumes. Each facility takes a daily inventory of these
                                  conditions by counting on-hand mail volume in conjunction
                                  with the facility's operating plan, generally immediately after
                                  clearance times.

Objective, Scope,                 The primary objective was to determine whether color-
and Methodology                   coding of Standard Mail at the Margaret L. Sellers P&DC
                                  followed the Postal Service’s National Color-Code Policy.
                                  We also examined whether the Postal Service followed best
                                  practices for color-coding.

                                  To determine whether Standard Mail in the facility followed
                                  the National Color-Code Policy, we:

                                      •   Observed 697 containers of Standard Mail, including
                                          containers arriving in the facility 1 hour before and
                                          after CET,5 and mail being prepared for processing.

                                      •   Interviewed the acting plant manager, the in-plant
                                          support manager, and six managers of distribution
                                          operations or supervisors on various tours.

                                      •   Reviewed the Standard Mail volume at the Margaret
                                          L. Sellers P&DC from June 26 – 30, 2006.

                                  Although not in our original scope, we also observed:

                                      •   Clearance time counts of on-hand Standard Mail.

                                      •   Preparation of the Daily Mail Condition Report from
                                          actual hand counts to the finished product.

                                  We conducted this review from June through
                                  September 2006 in accordance with the President’s Council
                                  on Integrity and Efficiency, Quality Standards for
                                  Inspections. We discussed our observations and
                                  conclusions with management officials and included their
                                  comments where appropriate.



5
    CET for Standard Mail at the Margaret L. Sellers P&DC was 2100 hours.



                                                         5
Color-Coding of Standard Mail at the Margaret L. Sellers                                        NO-MA-06-004
 Processing and Distribution Center




Prior Audit Coverage The U.S. Postal Service Office of the Inspector General
                     issued a management advisory report entitled Color-Coding
                     of Standard Mail at the Portland, Oregon, Processing and
                     Distribution Center (Report Number NO-MA-06-003,
                     September 26, 2006). We concluded that the Portland
                     P&DC generally color-coded Standard Mail according to the
                     Postal Service’s National Color-Code Policy. However, we
                     did note a few instances where color-coding did not conform
                     to Postal Service policy or best practices. Management
                     concurred with the report and began implementing the
                     recommendations.

Color Coding of                The Margaret L. Sellers P&DC generally color-coded
Standard Mail                  Standard Mail according to the National Color-Code Policy.6
                               Specifically, 638 of 697 observed Standard Mail containers,
                               or about 92 percent, were tagged with the correct color code
                               on arrival and processed in a timely manner with the original
                               tag.

                               However, color-coding on 59 of the 697 Standard Mail
                               containers that we observed, or about 8 percent, did not
                               conform to Postal Service policy. In addition, none of the
                               638 Standard Mail containers coded with the correct color
                               conformed to best practices. We describe some of these
                               exceptions below and list them in their entirety in the
                               appendix.

                                   •   Forty-six Standard Mail containers had no evidence
                                       of color-coding. See Illustration 2 below. When
                                       Standard Mail is not color-coded, the Postal Service
                                       cannot ensure its timely processing, dispatch, and
                                       delivery. Additionally, the Postal Service cannot
                                       readily track service standards to ensure compliance.




6
 The on-hand Standard Mail volume at the P&DC for the 5 days of observations (June 26 through 30, 2006) was
about 4 million pieces.



                                                       6
Color-Coding of Standard Mail at the Margaret L. Sellers                                             NO-MA-06-004
 Processing and Distribution Center




                                                 Illustration 2: No Color-Code Tags7

                                       •   Thirteen mail containers had the wrong color code
                                           applied. Illustration 3 shows a container that arrived
                                           after CET on Monday, June 26, 2006, that employees
                                           should have coded green for Tuesday, June 27, but
                                           instead tagged with Monday’s yellow code. Of the
                                           13 containers with incorrect codes, eight resulted
                                           from inappropriately retagging the mail with the next
                                           day’s color code.




                                                  Illustration 3: Wrong Color-Code8

7
    The green tag on the floor is not applicable to the mail in the picture.
8
    We determined that the color-code was incorrect based on the day and time recorded on the tag.



                                                           7
Color-Coding of Standard Mail at the Margaret L. Sellers                            NO-MA-06-004
 Processing and Distribution Center



                                  •    None of the 638 containers with correct color codes
                                       had completed tags. We found that 506 had
                                       no arrival date and time recorded on the tag, and
                                       132 had no arrival time recorded on the tag. See
                                       Illustrations 4 below and 5 on page 9. While the
                                       Postal Service’s national policy does not explicitly
                                       require placing the date and time on the color-code
                                       tag, this best practice helps mail handlers ensure
                                       compliance with the FIFO process.




                                            Illustration 4: No Date or Time




                                                      8
Color-Coding of Standard Mail at the Margaret L. Sellers                                            NO-MA-06-004
 Processing and Distribution Center




                                            Illustration 5: Date, but No Time, on Tag

                                Criteria for color-coding are well-established. POM 458.1a,
                                1b, and 2a require facilities to code all Standard Mail with
                                the color representing the day the mail is scheduled to be
                                delivered or cleared from operations, and select the color
                                code based on the mail’s arrival time. POM 458.321a also
                                requires facilities to develop local procedures to ensure they
                                maintain the correct color code based on when the mail
                                arrives on the premises.9

                                Section 458, while not explicitly requiring facilities to record
                                the mail arrival date and time on a tag, clearly implies the
                                information should be recorded. In addition, recording the
                                date and time on the tag is a best practice10 that assists mail
                                handlers in working Standard Mail in a FIFO process.
                                Further, according to headquarters operations specialists
                                who review color-coding in the field, the tag adopted by a
                                facility constitutes a local procedure employees must follow.
9
 Arrival refers to the day and time the mail arrives on Postal Service property.
10
  Network Operations Management Service Review of Processing Facilities in the North Florida Jacksonville District,
dated January 2006, discusses best practices for color-coding.



                                                         9
Color-Coding of Standard Mail at the Margaret L. Sellers                                 NO-MA-06-004
 Processing and Distribution Center


                                   Thus, when a facility adopts a tag that provides for recording
                                   the date and time of arrival, employees should complete the
                                   tag with this information.

                                   These conditions occurred for several reasons. Local
                                   management informed us that missing color codes were
                                   primarily the result of employee inattention and haste to
                                   meet CET. Miscoding occurred, in part, because employees
                                   preparing Standard Mail for primary sortation on Tour 2 were
                                   inappropriately retagging mail with the next day’s color code.
                                   The employees said they routinely retag primary sortation
                                   mail but could not offer a reason. In addition, omitting dates
                                   and times on color-code tags resulted from insufficient
                                   training and monitoring of employees.

                                   Several impacts of not properly color-coding the mail can
                                   occur. For example:

                                        •   When Standard Mail is not color-coded, the Postal
                                            Service cannot ensure it is timely processed,
                                            dispatched, and delivered. Additionally, the Postal
                                            Service cannot readily track service standards to
                                            ensure compliance.

                                        •   Mail inappropriately retagged with the next day’s
                                            color-code represents unreported delayed mail.11

                                        •   Without a date and time on the tag, the Postal
                                            Service cannot determine whether employees
                                            processed Standard Mail using the FIFO method. In
                                            addition, when an operation does not meet its
                                            clearance time, facility managers cannot determine
                                            what role the arrival time played.

Recommendations                    We recommend the Acting Plant Manager, Margaret L.
                                   Sellers Processing and Distribution Center:

                                        1. Ensure that employees conform to Postal Service
                                           color-coding policy and supervisors oversee the
                                           proper color coding of Standard Mail.

                                        2. Provide additional training on color-coding
                                           procedures.

11
     Mail was still processed within acceptable parameters for Standard Mail.



                                                            10
Color-Coding of Standard Mail at the Margaret L. Sellers                           NO-MA-06-004
 Processing and Distribution Center



                                  3. Date and time stamp the color-code tags when mail
                                     arrives, as applicable.

Management’s                  Management agreed with the finding and recommendations.
Comments                      To ensure compliance with color-coding policy, management
                              agreed to develop instructions, conduct training, and monitor
                              date and time stamping on color-code tags.

Evaluation of                 Management’s comments are responsive to the finding and
Management’s                  recommendations. Management’s actions taken or planned
Comments                      should correct the issues identified in the finding.

Clearance Count for           The Margaret L. Sellers P&DC was not performing a
Standard Mail                 clearance count on time. The clearance time for Standard
                              Mail at the Margaret L. Sellers P&DC was 12:10 a.m. At this
                              time, in-plant support personnel are required to count all on-
                              hand mail, and tabulate plan failures and delayed mail for
                              posting to the daily mail condition report. However, they do
                              not include Standard Mail on-hand in the count. Instead,
                              they delay counting Standard Mail until the next count at
                              6:30 a.m., or 6.5 hours later.

                              Postal Service officials told us the Margaret L. Sellers P&DC
                              included Standard Mail in the 12:10 a.m. count many years
                              ago, and they did not know when or why the practice
                              stopped.

                              Excluding Standard Mail in the 12:10 a.m. count gives
                              operations an additional 6.5 hours to process and dispatch
                              the mail before identifying the previous day’s mail as
                              operating plan failures and delayed mail. As a result, the
                              Postal Service may not have identified all Standard Mail
                              operating plan failures and delays.

Recommendation                We recommend the Acting Plant Manager, Margaret L.
                              Sellers Processing and Distribution Center:

                                  4. Include Standard Mail in the 12:10 a.m. count.

Management’s                  Management agreed with the finding and recommendation
Comments                      and added Standard Mail to the 12:10 a.m. count each day,
                              and will monitor this activity for compliance.




                                                     11
Color-Coding of Standard Mail at the Margaret L. Sellers                          NO-MA-06-004
 Processing and Distribution Center




Evaluation of                 Management’s comments are responsive to the finding and
Management’s                  recommendation. Management’s action should correct the
Comments                      issues identified in the finding.

                              We appreciate the cooperation and courtesies provided by
                              your staff during the review. If you have any questions or
                              need additional information, please contact Robert J. Batta,
                              Director, Network Operations - Processing, or me at
                              (703) 248-2300.


                                E-Signed by Colleen McAntee
                               ERIFY authenticity with ApproveI



                              Colleen A. McAntee
                              Deputy Assistant Inspector General
                               for Core Operations

                              Attachments

                              cc: Patrick R. Donahoe
                                  William P. Galligan, Jr.
                                  Anthony M. Pajunas
                                  Michael J. Daley
                                  David E. Williams
                                  John E. Platt
                                  Steven R. Phelps




                                                     12
Color-Coding of Standard Mail at the Margaret L. Sellers                                            NO-MA-06-004
 Processing and Distribution Center


                                               APPENDIX A

                   SUMMARY OF COLOR-CODE OBSERVATIONS
     Action Tested           Criteria             What was found                   Exceptions                  Impact

 Did employees         POM 458.1a.              Observations during         Of 697 observed                 Limited.
 color-code                                     all three tours for the     containers, 59 were not
 Standard Mail®                                 period June 26 - 30,        coded with the correct
 on its arrival at                              2006, revealed that         color – 46 containers
 the MLS                                        MLS P&DC generally          were not color-coded,
 P&DC?                                          color-coded Standard        and 13 containers were
                                                Mail as it arrived.         inappropriately
                                                                            retagged.

 Did employees         Best Practice12          Observations during         Of 697 observed                 Limited.
 apply complete                                 all three tours for the     containers, 638 had
 and accurate                                   period June 26 - 30,        incomplete color-code
 color codes?                                   2006, revealed that         tags. The tags did not
                                                MLS P&DC did not            have the day and/or
                                                always include the          time the mail arrived
                                                arrival day or time on      written on them.
                                                the color-code tag.         • 506 containers had
                                                                                no arrival date and
                                                                                time written on the
                                                                                tag.
                                                                            • 132 containers had
                                                                                no arrival time
                                                                                written on the tag.

 Was the mail          POM 458.321b &           From observations of        We observed only                Minimal;
 moved on a            Operations Skills:       in-plant support            five containers of              potentially
 timely basis          Processing and           personnel performing        delayed flats by the            significant
 using the FIFO        Distribution, Color      mail counts, in             AFSM. The P&DC                  during
 method?               Code Participant         general, the P&DC           properly reported them          periods of
                       Guide, pg 5-7.           was processing mail         as delayed in MCRS.             high volume.
                                                on a timely basis;
                                                however, using the
                                                FIFO method is not
                                                possible when color-
                                                coded tags do not
                                                reflect the mail arrival
                                                date and time.




12
  Network Operations Management Service Review of Processing Facilities in the North Florida Jacksonville District,
dated January 2006, discusses best practices for color coding.



                                                        13
Color-Coding of Standard Mail at the Margaret L. Sellers                                  NO-MA-06-004
 Processing and Distribution Center



 Action Tested              Criteria           What was found               Exceptions             Impact

 Was the MLS          POM 458.321b &         We observed               None.                    None.
 P&DC applying        the MLS P&DC           personnel unloading
 the correct color    Operating Plan,        in-bound trailers both
 code to mail         Section 9 – In-        before and after the
 upon arrival?        Plant Operating        facility's CET (2100).
                      Parameters.            All inbound mail was
                                             coded with the
                                             correct color.

 Were color           POM                    Observations during       Of 13 miscoded           Potentially
 codes changed        458.321h(1)(2).        all three tours for the   containers, eight were   Significant.
 after the initial                           period June 26 - 30,      miscoded when
 application?                                2006, did not reveal      employees retagged
                                             that MLS P&DC             containers as they
                                             changed color-code        came out of a mail
                                             tags on Standard          preparation operation
                                             Mail after their          on Tour 2.
                                             original application.

Legend:         FIF0 – First In, First Out
                MLS – Margaret L. Sellers
                P&DC – Processing and Distribution Center
                POM – Postal Operations Manual
                AFSM – Automated Flat Sorting Machine
                CET – Critical Entry Time
                MCRS – Mail Condition Reporting System




                                                     14
Color-Coding of Standard Mail at the Margaret L. Sellers   NO-MA-06-004
 Processing and Distribution Center


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                     15
Color-Coding of Standard Mail at the Margaret L. Sellers   NO-MA-06-004
 Processing and Distribution Center




                                                     16
